ES, IG-03-009, Performance Management Related to Agencywide Fiscal Year 2002 Information Technology Security Program Goals
IG-03-009
Performance Management Related to Agencywide
Fiscal Year 2002 Information Technology Security Program Goals
March 27, 2003
EXECUTIVE SUMMARY
NASA did not develop information technology (IT) security performance measures that
fully addressed security program performance requirements in the Government Information
Security Reform Act (Security Act) and the Office of Management and Budget guidance for
reporting on the Security Act.  Although the NASA Chief Information Officer established
fiscal year 2002 Agencywide IT security performance measures for unclassified systems,
based on our audit work, the measures either did not fully accomplish NASA's intended
Agencywide IT security program goals or did not ensure that NASA information, data, and
systems were adequately protected.  Management concurred with our recommendations and
plans to take responsive corrective actions.
This report contains information that may not be releasable to the
general public.
Rev. April 3, 2003